X

C-

No.
IN THE

SUPREME COURT OF THE UNITED STATES

ARTHUR 0. ARMSTRONG

PETITIONER

VS.

CITY OF PHILADELPHIA and
SCHOOL DISTRICT OF PHILADELPHIA,

RESPONDENTS.

ON PETITION FOR A WRIT OF CERIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Arthur O. Armstrong, Pro se
8113 Pleasant Hill Road
Elm City, NORTH CAROLINA 27822
252-23 6-7912

QUESTIONS presented
1.

Whether School District of Philadelphia, on August 25.1992. discharged the petitioner from his

teaching position, without due process of law, without a hearing, in violation of the Fourteenth
Amendment to the Constitution of the United States and Article B-VIII,

Grievance Procedure of the

collective bargaining agreement between the School District of Philadelphia and Federation of Teachers
when respondent acted with active connivance in the making of the state law violation false reports and
other conduct amounting to official discrimination to deprive appellant of property without due process
of law.
2. Whether respondent School District of Philadelphia, on November 18.199* denied the
petitioner reinstatement to his teaching position without due process of law, without a hearing, in
violation of the Fourteenth Amendment to the Constitution of the United States and Article B-VIII.
Grievance Procedure of the collective bargaining agreement between the School District of Philadel
phia
and the Federation of Teachers by arbitrary means when respondent denied the
the hearing, or be heard when respondent acted with active connivance in the
was afforded Article B-VIII, Grievance Procedure false

petitioner to speak at

making of "Petitioner

reports and other conduct amounting to official

discrimination clearly sufficient to deprive petitioner of his job without due process of law.

-RiEiRUDMAY 2 0 2021

muraaMt

ii
PROCEEDING and RELATED CASES
All parties appear in the caption of the case are on the cover page
RELATED CASES
Armstrong vs. School District of Philadelphia, et al, No. 2-99-cv-00825-H, United States District Court
for the Eastern District Pennsylvania, judgment entered April 27,2021.
Armstrong vs. School District of Philadelphia, et at. No. 21-8022, United States Court of Appeals for the
Third Circuit, Judgment entered May 5,2021.
Rule 26.1 Disclosure statement:
There is no parent or publicly held company owning 10% or more of the corporate stock.
TABLE OF CONTENT
Question Presented

i

Disclosure statement

ii

Table of content.

ii

Opinion below

1

Jurisdiction statement.

1

Constitutional and statutory provisions involved.

1

Statement of the case................

......... 2

Reason for granting the petition

.5

Conclusion

5

For the case from federal court, the Opinion of the United States Court of Appeals for the Third
Circuit appears at Appendix A to the petition and is unpublished.
The Opinion of the United States District Court for the Eastern District of Pennsylvania appears at
Appendix B to the petition and is unpublished
JURISDICTION
From the federal court, the date on which the United States Court of Appeals for the Third Circuit
decided my case was May 5,2021.

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
Constitutional Provision:
Fourteenth Amendment

Statutory Provision:
28 U.S.C.S. 1254 (1)
28 U.S.C.S. 1291
28 U.S.C.S. 1746
42 U.S.C.S. 1983
STATEMENT OF THE CASE
1.

Petitioner resides at 8113 Pleasant Hill Road, Elm City, NC 27822.

2.

On August 25,1992. in Philadelphia County, PA, Respondent School District of Philadelphia,

failed to conform to the requirements of the federal constitution and laws of the United States when
respondent acted with reckless indifference and wanton disregards for the truth or falsity and the rights
of petitioner and others when respondent, without probable cause or just cause, acted with, including
but not limited to: arbitrariness, capriciousness, malice, fraud, trickery, misrepresentation, deceit,
defamation of character, racketeering, highway robbery, pattern of racketeering activities, RICO, gross
negligence, racial conspiracy, racial discrimination, jealousy, extortion, elusive and conspiracy when
respondent discharged petitioner from his teaching position without due process of law, without a
hearing in violation of the Fourteenth Amendment to the Constitution of the United States and in
violation of Article B-VIII, Grievance Procedure of the collective bargaining agreement between the
Board of Education - School District of Philadelphia and the Federation of teachers when respondent
acted with active connivance in the making of the "State law violation false reports and other conduct
amounting to official discrimination clearly sufficient to constitute denial of rights protected by the
Equal Protection Clause to deprive petitioner of property without due process of in violation of the
Fourteenth Amendment to the Constitution of the United States.
3. Again, on November 18,1994, respondent did it again, that respondent did it again when

respondent failed to conform to the requirements of the federal constitution and laws of the United
States when respondent acted with reckless indifference and wanton disregards for the truth or falsity
and the rights of petitioner and others when respondent, without probable cause or just cause, acted
with including, but not limited to: Arbitrariness, capriciousness, malice, fraud, falsity, racial
conspiracy, racial discrimination, jealousy, trickery, misrepresentation, gross negligence, RICO, highway
robbery, defamation, racketeering, elusive, pattern of racketeering activities, deceit, extortion,
distortion and conspiracy when respondent, did not only, deny petitioner reinstatement to his teaching
position in violation of the Fourteenth Amendment to the Constitution of the United States and Article
B-VIII Grievance Procedure of the collective bargaining agreement between the Board of Education and
The Federation of Teachers, but a September 12,1994 written contractual stipulation agreement.
deemed to benefit the petitioner in the withdrawal of his federal and state lawsuits, when respondent.
on the face, hired John Doe to arbitrate the matter, when respondent denied the petitioner to be heard
at the purported due process of law hearing, when respondent shut the petitioner up, when petitioner
said, "To tell you the truth" when respondent acted with active connivance in the making of the "
Petitioner was afforded Article B-VIII Grievance Procedure false reports and other conduct amounting to
official discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive Petitioner of property when respondent denied petitioner reinstatement to his
teaching position without due process of law, when respondent coerced the petitioner from the
purportedly due process of law hearing, literally, told the petitioner he won and go home.
4. That the conduct complained of was engaged in under color of state law and that such conduct
subject the petitioner to the deprivation of rights, privileges and amenities secured by the federal
constitution and laws of the United States while engaged in the conduct complained of.
5. As a direct and proximate result of respondent's action, petitioner suffered continuing injuries
including but not limited to: mental distress, psychic injury, mental anguish, injury to his reputation,
humiliation, harassment and financial losses. I pray for judgment in the sum of $125,000,000.00.

WHEREFORE Petitioner prays for judgment as follows:
1. Compensatory and punitive damages in the sum of $125,000,000.00 under 42 U.S.C.S. 1983 Civil Rights Act.
2.

Intangible harm

3. Attorney's fees under 42 U.S.C.S. 1988 Attorney Awards Act; or as a component of punitive
damages.
4. Costs and Expenses of this action and such other and further relief as the Court deems just and
proper.
Respectfully submitted this the 15th day of May, 2021.
RespectfuHy’Submitted,
May 15, 2021
Arthur (

22

itrong, Petitioner

8113 Plaint Hill Road
Elm City, i\IC 27822
DEMANDS JURY TRIAL
Petitioner her3eby demands jury trial on all issues raised by the pleading in this action
May 15, 2021

Arthur O. An

:rong, Petitioner

VERIFICATION
Arthur O. Armstrong, being first duly sworn, deposes and says that he is the Petitioner in the foregoing
action and that the allegations set forth in the Petition are true and correct to the best of his knowledge
and belief except for those allegations set forth on information and belief and as to those allegations he
believes them to be true.
May 15, 2021
Arthur io. Anpstrong, Petitioner
8il3Tleasant Hill Road
Elm City, NC 27822

AFFIDAVIT OF ARTHUR O. ARMSTRONG
I swear under penalty of perjury under United Stats law that the within and foregoing statements set
forth in the verification are true and correct (28 U.S.C.S 1746.).
May 15.2021
Arthur O. Arm:

ig. Petitioner

REASON FOR GRANTING THE PETITION
The petition should be granted on a federal question that the United States Court of Appeals for the
Third Circuit has decided an important question of federal law that has not been, but should be settled
by this Court or has decided an important question in a way that conflicts with relevant decision of this
Court.
CONCLUSION
Because of the Conduct of the respondent, Petitioner respectfully requests that Petitioner's petition
for writ of certiorari be granted.
May 15, 2021
Arthur O. Armgtroji&'Petitioner

